Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




    FUNCTIONAL IMPAIRMENTS
        OF AFDC CLIENTS:
           Case Studies




            .. SERVICE
           t-\'


                         Richard P. Kusserow
                         INSPECfOR GENERA
      "1

           ;(b)cl:a           MACH 199
                       OFFCE OF INSPECfOR GENERA
The miion of the Ofce of Inpeor       Genera (DIG), as mandate by Public La
                                                                          95-452, as
amended is to prote the   integrty of the Deparent of Heath and Human Servce ' (HS)
progr as well as the heath and welfar of beneficiares served by thos progr. Th
statutory miion is caed out thugh a nationwde netwrk of audits, intigations, and
inpeons conduc by thee DIG operatig components: the Ofce of Audit Servce, the
Ofce of Intigations, and the Ofce of Evauation and Inpeons . The DIG al inorm
the Seeta of      HI of progr and management problems and remmends cour
corr them.
                         OFFCE OF AUDIT SERVICE
The DIG's    Offce of Audit Servce (OAS) prodes al   auditig servce for HI, either by
conductg audits with its ow audit resurce or by oversing audit work done by others.
Audits

     out their repee
                                                  grte
     ermin e the performance of HI progr and/or its             and contrctors in
cag                                                 prode independent
                           reponsibilties and are intended to
asments of HI progr and operations in order to reduce wate, abus, and
mimanagement and to promote ecnomy and effciency thughout the Deparent.

                         OFFCE OF INTIGATIONS
The DIG's   Ofce of Inestigations (01) conduct cral ci    and admtrtie
                                                          HI
inestigations of alegations of wrongdoing in HHS progr or to    beneficiares and of
unjust enrchment by proders. The                               cral convictions
                                   inestigatie effort of 01 lead to
admitrtie sactons , or ci money penalties. The 01 al ovrs State Medcad frud
contrl unts which inestigate and prote frud and patient abus in the Medicad program


               OFFCE OF EVALUATION AN INSPECTONS
The DIG's    Offce of Evauation and Inpeons (DEI conduct short-term management and
progr evuations (caed inpeons) that foc       on isues of concern to the Deparent,
the Congres, and the public. The fidigs and recmmendations contaed in thes inpeon
report generaterapid, accte, and up-tote inormation on the effciency, wlerabilty,
and effecivenes of deparenta    progr
Th report wa prepar in the New York Regional Ofce under the diecon of Regiona
Inpeor Genera Thomas F. Tul and Deputy Regional Inpeor Genera Alan S. Meyer.
Projec sa included
New York                                                  Headauarters
Renee C. Schlesinger (projec Leder)                       Sus E. Harck
Demetr Arpakos (Ld       Analt)
Nancy      Harn
Concett Brucceri
Department of Health and Human                                  Servces
               OFFICE OF
          INSPECTOR GENERAL




              FUNCTIONAL IMPAIRMENTS
                  OF AFDC CLIENTS:
                     Case Studies




                                 .. SERVICE
                           ~t-\'

                                              Richard P. Kusserow
                                              INSPECfOR GENERA
                      '0



                            ;(lflfcl30                 901
                                                  OEI-0-
              EXECUTIVE SUMMARY

PUROSE
The purpose of this report is to present case studies of eight programs which appear
to be helping functionally impaired clients of the Aid to Familes with Dependent
Children (AFC) program.

BACKGROUN
AFDC aims to assist needy children and parents in moving from welfare dependency
to self-suffciency. It is admiistered by States , but funded jointly by the Federal and
State governments. Several recent studies have highlighted the existence of functional
impairments in the AFDC population.

The Family Support Act requires States to develop a Job Opportunity and Basic Skills
(JOBS) program , an education , training and employment program intended to help
AFC clients avoid long-term dependence. Clients are assessed to determine their
training needs and to develop an employabilty plan.

DIG Stu

The case studies in this report result from a recent Office of Inspector General (OIG)
inspection , entitled " Functional Impairments of AFDC Clients " (OEI- 02- 90- 00400),
which studied whether and how States with JOBS experience are systematically
identifyng and dealing with the functional impairments of AFC clients. The study
identified some programs that are making special efforts to help the functionally
impaired. These programs are presented as case studies in this report.

METHODOLOY
Durig the " Functional Impairments of AFC Clients" inspection , managers of State
welfare offces and JOBS program directors recommended programs they believed to
be particularly effective in helping the functionally impaired. The inspection team
chose eight from those cited for further study; four were visited and four were
contacted by telephone. The programs were chosen because they demonstrate a
broad range of program practices and philosophies.

Information for the case studies was derived from intervews with program managers
staff, and clients , from literature obtained from the programs , and from the team
own personal observations.
                             FOUR PROGRA            VIIT
The Fam Independence Progr in Manchester, New Hampshire
contracts with JOBS to provide intensive pre-vocational and vocational training to
recipients who have been on AFC for more than one year so they may sustain full-
time employment. The program s key features include one-on-one attention
supportive environment , continuing follow-up and client support groups.

Key Education has its home offce in Shrewsbury, New Jersey. It is a private test-
development company that contracts with the State of Delaware to conduct JOBS
client assessments. The company uses a computeried KEV AS (Key Education
Vocational Assessment System) machie to measure skills , interests , and levels of
functioning. The main features of Key Education are its thorough assessments, client
profie reports and career counseling.


The goal of the Literacy  Progr   in Bridgeton , New Jersey, is to have clients achieve
their graduate equivalency degree  (GED). The program is notable for its innovative
teaching methods , individualied instruction , client support system and staff dedication.
Clients feel the program is teaching them how to cope with their problems , gives them
renewed confdence and will help them get jobs.

The MOST/MS Progr located in Mt. Pleasant , Michigan , works to reduce or
eliminate dependency on the public welfare system     by helping people to acquire   skills
to be competitive in the labor market and to earn a livig wage. Intensive
assessments , financial assistance , a holistic approach and excellent staff coordination
are the major contributing factors to the program s success.

                         FOUR PROGRAS TElEPHONED

The Fam Development Self-Sufciency Progr (FaDDS) in Iowa has support
groups , self-esteem workshops and GED classes to " enable families to achieve a level
of self-suffciency .. thus breaking the cycle of ADC (welfare) dependence from
generation to generation.

Let' s Help in Topeka , Kansas is an adult education program with the goal to " get
everybody in Shawnee County work-ready, get everybody off of AFDC with love and
kindness . It offers a specialleaming program where JOBS clients have an
individualized schedule geared to achieving basic skills or aGED.

New Diecton in Allegheny County, Pennsylvania tries to address a client s barriers to
employment by working with the individual and the Office of Vocational
Rehabiltation overcome functional impairments.
Project Resolve in Omaha , Nebraska chooses clients with problems and supports them
in their efforts to leave welfare. One- to-one counseling and a personal plan are
special to the program.

                                   COMMNT
The Assistant Secretary for Planning and Evaluation commented on the draft report.
These comments included a few specifc questions about terms used. Appropriate
changes have been made in this final report.
             . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .  . . . . . . . . . . .. .. .. .. .. .. . . . . . . . .. .....
                                                                               . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .
                                                                                                                                 . . .
                                                                                                                                     . .. .. .. .. .. ... . . ..




                   TABLE OF CONTENTS

EXECUTIV SUMMY

INODUCI0N

CASE STUIE                                                                                                            . . . . . . . . . . . . . . . 4


  Four Programs Visited


        The Family Independence Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


        Key Education. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


        The Literacy Program                                                                                                                            .. 10



        The MOST/MS Program. . . .. . . 

  Four Programs Telephoned


COMMNf
                         INTRODUCTION€
PUROSE
The purpose of this report is to present case studies of eight programs which appear
to be helping functionally impaired clients of the Aid to Familes with Dependent
Children (AFC) program.

BACKGROUN
AFDC

When enacted in 1935 , the AFC    program s intent was to allow widowed mothers to
stay at home with their children. As indicated in Title IV of the Social Security Act
(Part A, Section 401), it was set up to encourage "the care of dependent children in
their own homes on by enabling each State to furnsh financial assistance and
rehabiltation and other servces to needy dependent children and the parents or
relatives with whom they are livig. Its philosophy shifted with the Family Support
Act of 1988; it now aims to assist needy children and parents in moving from welfare
dependency to self-sufficiency. The program is administered by States , but funded
jointly by the Federal and State governments.

Several recent studies have highlighted the existence of functional impairments in the
AFDC population. A 1988 study for the Assistant Secretary for Planning and
Evaluation (ASPE) reported that nearly one in four women on AFDC under the age
of 45 descn"bed themselves as functionally impaired , in contrast to only one in eleven
non- AFDC women doing so. A study completed recently for ASPE by Child Trends
Inc. found that most AFDC mothers have a limited education , score below average on
verbal and math skills tests , and have little work experience. Some of the mothers
report health problems , alcohol abuse and depression. Half are long- term welfare
recipients.

JOBS

To promote self-sufficiency, the Family Support Act requires States to develop a Job
Opportunity and Basic Skills (JOBS) program , an education , training and employment
program intended to help AFDC clients avoid long- term dependence. States are to
have enrolled seven percent of the eligible population by 1991 , rising to 20 percent by
1995. Clients are assessed to determine their training needs and to develop an
employabilty plan. While all States have now implemented JOBS , some programs
have been in operation longer than others. States and counties may contract out
individual programs on a local level which provide training, education and other
servces for AFDC clients.
DIG Stu

The case studies in this report result from a recent Offce of Inspector General (OIG)
inspection , entitled " Functional Impairents of AFC Clients " (OEI- 02-90- 00400),
which studied whether and how States with JOBS experience are systematically
identifyng and dealing with the functional impairents of AFC clients. The study
found that States recogne the existence of functional impairments , with learning
disabilties and substance abuse being the most common. They do not , however
collect aggegate data on these impairents. Participation in JOBS increases the
chances of clients havig their functional impairments identified , but problems exist in
dealig with these impairments. Finally, the study identied some local programs that
are makig special efforts to help the functionaly impaired. These programs are
presented as case studies in this report.

MEODOWGY
Durig the " Functional Impairments of AFDC Clients " inspection , the team conducted
telephone intervews with managers of State welfare offces and with JOBS program
directors in the 25 States havig a JOBS program in place since October 1989. When
asked to recommend any programs they believed to be particularly effective or
innovative in helping the functionally impaired , respondents cited 24 such programs.€
Eight were chosen for further study; four were visited and four were contacted by
telephone. They were chosen because they     reportedly exemplify some effective
practices for identifyng and/or servng AFC clients with functional impairments and
because they demonstrate a broad range of program practices and philosophies. All
eight were found to be JOBS related.

Two of the visited programs are in New Jersey, one is in Michigan and the other is in
New Hampshire. At each site , discussions were held with the program director and/or
staff to learn about the operations of the programs. Additionally, seventeen program
clients , selected either by the program manager or by the visiting team , were
intervewed on-site to obtain their views. The number of clients spoken to at each
program ranged from three to ten. In all , the team conducted 26 intervews onsite.

The four programs contacted by telephone are located in Pennsylvania, Iowa , Kansas
and Nebraska. The team conducted a telephone intervew with each program director
but not with   clients.

Inormation for the case studies was derived not only from the onsite and telephone
intervews , but also from literature and other materials obtained from the programs , as
well as the team s own personal observations.

Following are individual reports on the four programs visited on-site. These reports
discuss each program s operation , goals , client profies , key attributes and outcomes
Lastly, a summary of the four programs contacted by telephone follows the onsite
reports. It contains various descriptions of the various   approaches taken by these
programs to help the functionally impaired.
                          FAMY INEPENENCE PROGRA
                                 Manhe New     Hampshie

Key Featues

          One-on-one attention
          Supportive environment
          Continuing follow-up
          Client support group

Backgun
The Family Independence Program (FIP) is located in the largely rural State of New
Hampshire. FIP is a Job Trainng and Partnership Act (JTA) program         which
contracts with JOBS to provide intensive pre-vocational and vocational training to
recipients who have been on AFDC for one continuous year or longer. It operates in
several locations throughout New Hampshire to prepare AFDC recipients for jobs that
pay wages adequate for long- term self-suffciency. Participants are counseled and
guided through the program toward a personal goal of independence and sustained
full-   tie employment.
In existence since December 1985 , the program currently has 207 clients Statewide
with approximately 120 new clients added each year. Between 10 and 15 clients are
enrolled at each site.

Program Operatin


Designed to serve the entire family, FIP is an individually tailored program which
provides supportive servces , such as counseling, day care , transportation and medical
servces , until the breadwinner maintains stabilty on a new job.

The State AFC program refers lists of appropriate clients to FIP. During an
intervew with the client in her home , the FIP counselor describes the program , goes
over the mission statement , and ascertains the commitment level of the client. The
counselor also assesses the home situation and identifies possible barrers to self­
suffciency.

After the intervew , clients go through an initial pre-employment preparation (PEP)
phase which lasts for 10 weeks and runs six hours a day. It is an intensive effort to
motivate participants and increase their personal and vocational awareness. During
this phase , the participant develops his/her own family independence plan and , if
barrers are discovered , obtains help. Graduation occurs when the family has
successfully composed a plan that meets the criteria and standards set by the program
administrators , the case management team and the family itself.
Aditionally within the PEP cycle , academic remediation takes place to prepare
participants for the work-related training in the next segment of the program. Here is
where a learng disabilty might be discovered. Special help is given if necessary.

Afer PEP graduation , the client may participate in different kinds of training
programs , such as on- the-job training, GED classes (if not completed during the PEP
cycle), or a college program.

If barrers such as functional impairments are discovered durig the initial home
intervew or at any other time , the client is referred to the most appropriate servce
for a full assessment. Ths might be vocational rehabiltation , sessions with a
psychologist , a medical evaluation or treatment or a number of other servces. The
participant remains in FIP as the primary servce and FIP works with the referral
provider.

Pr       Goals

The FIP goals include:   assisting a long-   term welfare dependent family to achieve self­
suffciency through permanent employment; discovering the barrers that may hinder
the participant' s progress towards permanent employment and eliminating or
modifng those    barrers; and to providing a system of    temporary support servces.
These goals are achieved by: motivating participants to change their life style;
encouraging them to improve and strengthen positive attitudes towards themselves and
work; assessing clients ' basic academic level , occupational skills and interests;
preparing participants through education and training with continued support; and
helping to ensure permanent employment with continued support for up to three years
following enrollment in FIP.

Cli Prfi


Clients in FIP have learning disabilities , substance abuse , hearing and visual
impairments , physical problems such as low back pain , obesity, dental problems and
emotional disorders. Many have multiple problems , often exacerbated by low self-
esteem. One staff respondent estimates that 20 percent of clients have a learning
disabilty which has never been addressed before. According to many respondents
having either poor teeth or no teeth is a major barrer, since it makes it more difficult
for them to find a job.

Progm Attutes


Clients cite as special features that make this program work: the chance to meet other
women in the program and have a support group, and the accessibilty of the
counselors , who "will go out on a limb for you " and are " nice and caring and make you
feel good about yourself. " Clients consider the follow-up essential - the feeling of
someone being there. Program support continues for up to three years after
graduation.
              , "                               , "





The staff feel that meeting program objectives and goals , within a supportive
environment , and with constant one-to-one case counselor contact and continuing
follow-up contributes to the success of this program.

Oucome
Intervewed clients all agree that the program is helping them. One reflects the
feelings of all of those intervewed when she says It turned my whole life around. I
was doing nothing, going nowhere. Now I have a pretty exciting future ahead of me.
Another states It was a perfect opportunity for me." She said she had no skils , no
teeth , no transportation, and now she has all of them. Another client became
pregnant durig the beginning of the program so she would not have to continue , but
then came back.


Contact Person:	           Maureen Johnson , Associate Director
                           New Hampshire Job Training Council
                           64B Old Suncook Road
                           Concord , NH 03301
                           603- 228- 9500
                                   KEY EDUCATION, lNe.
                            Shrewsbur, New Jerey (home offe)

Ke Featues
       Thorough assessments
           KEV AS machine
           Client profie reports
           Career counselig

Backgun
Key Education , a private test- development company, contracts with several State
county, and municipal agencies to conduct client assessments for diferent programs.
It is currently assessing JOBS clients in Delaware. Their home office in Shrewsbury,
New Jersey was visited in order to find out about their work with the Delaware JOBS
clients.

        Key Education created KEV AS (Key Education Vocational Assessment
In 1977 ,
System), a self-administered, computeried screening process which measures a variety
of skils , interests , and levels of functioning. The company adapts its assessment
system to the needs of the specifc group being tested. It can tailor the tests for
iliterate clients and for those who have never succeeded in an academic setting.


Depending on the contract , Key Education either provides certified examiners for the
assessments or trains designated agency personnel to administer tests and interpret
data.

Prgram Opeatin

The assessment process involves three parts: wrtten tests , personal intervews , and
the KEV AS machine , a special computer program. It takes clients about two to three
hours to complete the assessment.


The wrtten portion of the assessment evaluates the client s word knowledge , language
usage skills , reading skills , and arithmetic and spacial problem solving skills.

The personal intervew portion focuses on health and psychiatric history, education
work history and goals , barrers to employment, existing disabilties , social skills
interests and hobbies , and home life. Key Education trains its examiners to assess the
reliability of the intervew information because clients may lie or have misconceptions.

Examiners also look for signs , such as physical coordination problems or the wearing
of too much perfume which might disguise the smell of alcohol , suggesting a possible
substance abuse problem. If a client does not dress correctly for the weather, or has
poor hygiene , it may indicate emotional problems.
The KEV AS machine ,   which lets the client work at her or his own pace , looks like an
average tyewrter but is computeried. It guides the client through a battery of
exercises and tracks the results on a computer disk.

The tests are both language and non-language based and measure the followig
abilties: to retain information gathered through auditory channels; to learn through
observation and then perform effectively; to perform repetitive manual tasks; to follow
directions; and to lead. The system also tests for hearig impairments and color
blindness.

Other KEV AS features include: a hand-strength test to indicate general physical well-
being and development, and a test of the client s hand and foot response to light and
sound to demonstrate upper and lower body functioning.

The results of the wrtten tests and the personal intervews are input into to the

KEV AS machine to be scored. Each score is compared with the norm and placed on

a scale , ranging from superior to impaired performance , to generate a functional

profile of the client.


Key Education researches the local labor situation to ascertain which companies are
increasing staff, which employers are downsizing, and what jobs are in the local want
ads. The data is input into the KEV AS machine. Then , taking interest and function
into account , the machine tries to match the client profile to a job or a related work
area. The staff at Key Education then suggest possible training if needed. If no
match is found , the client is probably not ready for competitive employment.

When Key Education examiners identify an impairment , they inform the agency staff
which handles it; Key Education does not itself refer clients or provide supportive
servces.

Prm Goals
Key Education aims to successfully assess client strengths , weaknesses and level of
functioning. Based on the assessments , it attempts to find the work environment to
which the client is best suited.

Cli Prfi

The examiners at Key Education have identified many JOBS clients with impairments.
One manager believes the most prevalent impairment in the JOBS population is
learnng disabilties. She adds that " a disabilty rarely marches on its own - it is the
nature of learning disabled people to have self-esteem problems because they have
always been told that they are not tryng. This adds blame to the disabilty which
compounds the problem.
                         II The KEV AS tests also have shown that many JOBS clients
are physically weaker than the rest of the population.
Prm Attut
At the end of the contract year Key Education produces a summary report for the
agency givig all the testing results. It also provides aggegate statistical information
about the assessed population , and highlights the tyical characteristics found. Key
Education managers consider this data the most valuable part of their program
because it allows agencies to better focus resources and to develop servces which
respond to the needs of its population. It also assists in the development of local
norms and other statistical material showig trends and changes in the population.

Specific client profiles can be obtained from the data Key Education maintains. For
example , an analysis of all clients who have been identified as substance abusers
reveals a common functional profie different from the rest of the population. This
profile may assist in identifng future clients with similar impairments.

Oucome
Key Education has been successful in matching clients with jobs they are most suited
for. It has identified those clients who are not ready to enter the job market and need
further servces. Also , it has provided aggregate data to help agencies better serve
their client populations.

Contact person:             Roseann M. Conlon
                            Vice President
                            Key Education , Inc.
                            673 Broad St.
                            Shrewsbury, NJ 07702
                              800- 25RJV AS
                            (201) 747- 0048   (in NJ)
                               LICY PROGRA
                                 Brgeton, New Jerey
Key Featues

       Innovative teaching methods€
       Individualized instruction€
       Client support system€
       Staff dedication€

Backgun
Bridgeton is a small town of several thousand in Cumberland County, a rural region of
southern New Jersey. The Literacy Program in Bridgeton provides servces under
contract with the Job Training and Partnership Act (IT A) agency. Funded jointly
with JOBS and IT A money, it has been in operation since March 1991. It currently
has ten participants ,
                    all were chosen because they scored below a fifth-grade     reading
level during the JOBS assessment process.

Prm Opetin
Clients spend between 15 and 30 hours per week in a literacy class , where they will
remain until they achieve their GED. The class uses several innovative techniques
including voice-activated computer instruction and a bar-code reading device which
allows the student to hear what a word sounds like. In the morning clients take part
in classroom instruction; in the afternoon they receive individual training and tutoring.
Their homework includes reading three magazine articles per week and learning a
required set of vocabulary words. Clients also meet with a counselor each week.

Prgrm Goals
The primary goal of the Literacy Program is to have clients achieve their GED. They
are encouraged to take pride in their achievements. The program also hopes to teach
clients how to successfully handle their problems and how to depend on themselves.
Upon attainng their GED , they are able to enroll in regular ITP A vocational training
programs and , hopefully, find meaningful employment.

Clint Prfi
Most clients have some barrer, aside from their low reading level , preventing them
from becoming self-sufficient. Several have learning disabilities, emotional problems
or substance abuse problems or a combination of these. Others are victims of
domestic violence. The classroom instructor cites their lack of self-esteem, self-
motivation and coping mechanisms as additional barriers.
      ,'                              , "




Presently, various means are used to deal with clients ' functional impairments. Those
with drug or alcohol problems are referred to substance abuse treatment programs.
Clients with emotional problems receive counseling, and the learning impaired are
given specialized classroom instruction.    The program is considering sending clients to
a local community college for formal learnng disabilty     testing in the future.


Al of the women in the program appear highly motivated. They feel that when they
were in school , the educational system did not accommodate their particular needs.
Now, as the program director states We offer them an alternative.

Pr Attut
Both staff and clients believe the key factor contributing to the Literacy Program
success is the classroom instructor, who acts not only as teacher but also as confidante
resource person and frend. All her students have her home phone number and she
often helps them with their problems.

They also attribute the program s success to innovative teaching methods
individualized instruction and staff dedication. Clients mention that they now have
support from women in simiar situations , and they find that very helpful.

Oucome
Al of the program s clients are very enthusiastic about the program. They feel that it
is not only going to help them get a job , but also that it is teaching them how to cope
with their problems and gives them renewed confidence. Several mention that they
are setting a good role model for their children and can even help them with their
schoolwork. One woman , who never finished school because of a learning disabilty,
asserts 'Tis is a second opportunity for me. I'm not going to let it go. " All of the
clients have specific goals for their future:   getting a GED and leaving welfare. Many
want to become nurses.

Whle the Literacy Program has not yet graduated any clients , it has several women
currently in the program who have particularly distinguished themselves. One has a
laptop computer at home and puts in extra hours to complete her lessons and
homework. She hopes to achieve her GED by the time her youngest child turns 18
when she is no longer eligible for AFDC and the Literacy Program.

Contact Person:              Charles Thomas
                             JT A, 72 N. Pearl Street
                               O. Box 1398
                             Bridgeton , New Jersey 08302
                             TEL: (609) 451- 8920
                                 MOST/M PROGRA
                                  Mt. Plean Michigan

Key Featues

       Intensive assessments
       Financial assistance
       Holistic approach
       Excellent staff coordination

Backgun
Isabella County is a largely rural area approximately 60 miles north of Lansing. The
Isabella County Department of Social Servces (DSS) administers AFC and does the
initial intake for the JOBS component, Michigan Opportunity and Skills Trainng
(MOST). DSS also contracts with Michigan Rehabiltation Servces (MRS) to refer
clients who show signs of an impairment. These signs are identified either through the
MOST orientation and assessment or through testing done in the local school system
to MRS. About 300 people have since been served; currently 35 welfare recipients
are enrolled. The program is fianced by a combination of local , State and Federal
funds.

The DSS created the partnership with MRS when they realized that many of their
MOST clients were not equipped to find and stay with permanent employment.
Although aware of some general employment barrers and impairments which might
be immediately apparent during intake , DSS staff felt they did not know the clients
well enough to identify and treat the barrers and impairments on an individual basis
especially if the impairments were easily hidden.

To help identify impairments DSS developed a contract with area schools to evaluate
clients ' aptitude , reading and math achievement , and personality through tests such as
APTICOM , T ABE and 16PF. They discovered the most common impairment was
emotional problems. Also , many clients had low intellectual functioning and learning
disabilties. The DSS felt no community resource was adequately servng these clients
because most agencies were " creaming" the best referrals , accepting only those with
the greatest chance for success.

Progm Opetin

Clients referred to MRS go through another assessment so their impairments and
strengths can be identified and an individual rehabiltation plan developed. This
extensive assessment includes a face- to- face intervew with a counselor regarding the
client s personal , educational , medical , vocational and social history. They also discuss
existing psychiatric history and disabilties , if any.
                         , "     , "                                         , "





The client undergoes a general medical examination , a psychological exam , evaluations
by specialists when indicated , and evaluations of current work skills and psychological
and emotional stamina testing. One counselor descnbes the assessment as
comprehensive and adds         We don t leave anything unlooked at.

Pr       Gols
The program s goal is to reduce or eliminate     dependency on the public welfare system
by helping people to acquire skis to be     competitive in the labor market and to earn a
living wage. The staff feels that some individuals wi never be totally off welfare and
wi always need some  form of public assistance; they therefore try to " eliminate and
                 II They also believe a program
reduce dependency.                                     lie theirs can   foster an
understanding of rehabiltation and habiltation in the welfare system because , contrary
to common belief, the whole welfare population is not able-bodied.

Clint Prfi
The MRS program classifes client impairments into three groups: emotional (58
percent), physical handicaps (24 percent), and mental retardation (18 percent). Once
their impairments are identifed , the clients are referred to supportive servces such as
mental health counseling and work skills trainig. Isabella County benefits from being
a small community in that coordination is tight , with no blind referrals or duplication
of effort occurrg.

Prgrm Attut
The MRS/MOST staff attribute their success to the belief that everyone has a        right to

work and looks for reasons both outside and within the client to see why they are not
workig. One counselor says We studied and researched to get an idea of the
direction we had to go. It is too simplistic to just put welfare clients into job training
programs. They are on welfare for certain reasons that must be identified and
addressed before they can be put in jobs. " Another staff member adds We invest the
greatest amount of nurturing energy to this group with impairments.

Other reasons for the program s success are that the staff is close- knit , having ongoing,
daily communication; it works closely with clients and takes a holistic approach to
improving their quality of lie. Also , the program addresses the total needs of clients
such as housing, transportation , and child care , and deals with the individual in her or
his unique situation.

The staff realizes there are no easy solutions and that the program s goals may only be
achieved through long- term commitment , because some cases require effort over
several fiscal years to be successful. Unfortunately, due to administrative and fiscal
problems , this is the last year in which the special program between MOST and MRS
will be operating.
                         , "





Ouome
For the most part ,   the clients who have gone through the MOST/MS process feel it
has helped them in some way. They especially appreciate the financial assistance
                                    costs, babysitting expenses , and school loans.
they receive to defray transportation
One client expresses the views of many in saying, "The program helped me get on my
feet. " Another reports It pulled me out of my depression and gave me confdence in
myself. " However, another feels that although the program helped her get a job and
find housing, it is too superfcial: it addresses current needs , but does not do enough
to help clients maintain their confidence without the program s support.

The program  s success stories include one about a client who came to his intake
intervew drunk but is now a counselor studying for his master s degree. Another is
about a formerly homeless woman who completed college and achieved full- time
employment.

The program has been effective in that clients have been trained , employed , and
moved off public assistance. Also , staff report that as a result of the program
thorough assessment to reveal functional impairments , a substantial number of MOST
clients have qualified for disabilty payments , particularly SSI.

Contact Person:                 Ron Verhelle
                                Rehabiltation Counselor
                                Michigan Rehabiltation Servces
                                2258 Enterprise Drive
                                Mt. Pleasant , MI 48858
                                (517) 773- 5925
                                                                                  , "




                        FOUR PROGRA             TEHONE€
We conducted telephone intervews with the directors of four additional programs as a
way to learn about different approaches of helping functionally impaired clients.
These approaches , highghted below, are other examples of special initiatives for
identifng and helping   functionally impaired clients. These are: the Family
Development Self- Suffciency (FaDDS) Program in Iowa; Let s Help in Topeka
Kansas; New Direction in Alegheny County, Pennsylvania; and Project       Resolve in
Omaha , Nebraska. Each of the four programs is JOBS-related.

FAMILY DEVLOPMENT SELF-SUFFICIENCY PROGRA (FaDDS)
Iowa

The FaDDS program works on the premise that training and employment
opportunities are not suffcient for clients who come from dysfunctional familes and
who have functional impairments. They need additional help before they can avail
themselves of these opportunities. The program manager states that the goal of the
FaDDS program is to " enable familes to achieve a level of self-suffciency and family
functioning (so that) they will remain independent from economic assistance for their€
lifetime , thus breaking the cycle of ADC (welfare) dependence from generation to
generation.

The program is under contract with the Iowa Department of Human Rights , which in
turn subcontracts with various non- profit organizations , community action agencies and
county social servces to run the program on a local level. The program targets long-
term welfare recipients who have been on AFDC for two or more years. Once clients
have undergone a thorough evaluation by a family development specialist in their
homes , they may enroll in one or more program activities , including support groups
self-esteem workshops and GED classes. Participation in FaDDS ranges from three
months to three years.

LET'S HELP
Tope   Kansas€

The goal in Let s Help is to "get everybody in Shawnee County work-ready, get
everybody off of AFC with love and kindness . The program manager states There
must be a goal for these people. Learning to read will help to support the family.

Let s Help, an adult education program , gets its referrals from the Kansas JOBS
program. Let s Help offers a special learning program where JOBS clients have an
individualized schedule geared to achieving basic skills or a GED. During the
program , clients may work with an individual tutor, usually a volunteer , on a one- to-
one basis , or they may work independently if they prefer. During the whole process
the JOBS worker and teacher coordinate closely with almost daily phone calls and
with monthly reports. Participation in Let s Help lasts as long as it takes for clients to
complete their goals.
               , "




NE DlRcrON
Allhe Coun, Penlvan
New Direction tries to address a client s barrers to employment before that client
begins job training. It works with the individual to move him or her towards self-
sufficiency. Strong coordination exists with OVR to accommodate clients with
functional impairents.

New Direction , the JOBS program, is distinctive for its strong links with the Offce of
Vocational Rehabiltation (OVR). In New Direction , an OVR counselor is actually
part of the JOBS assessment team. This counselor evaluates clients for learning
disabilties , illiteracy, psychiatric problems and substance abuse. If a client has one of
these impairents , he or she is referred to OVR for an additional in- depth assessment
and is then given specialized training and other remedial servces.

PROJECT RESOLVE
Omha Nebraka
Project Resolve aims to assist clients in becomig self-suffcient. The program
manager states We teach them to advocate for themselves. " Despite their
impairments , clients are encouraged and supported in their efforts to leave welfare.

In Project Resolve , case managers choose AFC clients with personal problems
and/or without a high school diploma to participate in the program. Many are long-
term welfare recipients. Clients enroll for 10 weeks, for an average of 16 to 18 hours
per week. They participate in a variety of different activities including: GED classes;
one-on-one counseling to develop a personal plan for their future; resource
management , chemical dependency and domestic violence workshops; and emotional
and physical health programs. Follow-up occurs at 30 , 60 and 90 day intervals.
COMM
The Assistant Secretary for Planning and Evaluation commented on the draft report.
These comments included a few specific questions about terms used. Appropriate
changes have been made in this final report.
